DOE/IG-0463




                                COMMERCIAL OFF-THE-SHELF
                                  SOFTWARE ACQUISITION
                                      FRAMEWORK




                                             March 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                      March 20, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Report on "Commercial Off-The-Shelf Software
                      Acquisition Framework"


BACKGROUND

The Department of Energy (Department) devotes a significant amount of its annual budget
to the acquisition and maintenance of information technology resources. About $1.6 billion,
or almost 9 percent of the Department's Fiscal Year 1999 budget of $17.9 billion, was for
the acquisition, operation, and maintenance of information technology. Approximately $200
million, or 12.5 percent of the information technology budget, was for desktop (personal
computing) technology. Over 130,000 personal computers are in use Department-wide.
These computers operate a wide variety of commercial off-the-shelf (COTS) computer
software, including electronic mail, word processing, spreadsheet, database management,
application development, statistical analysis, presentation, security and virus protection.
Many Departmental offices, including the Headquarters Office of Procurement and
Assistance Management, various program and field offices, and contractor-operated
facilities, have independently negotiated contracts to acquire and maintain information
technology related products.

Developing and implementing an effective software acquisition framework to support the
information technology program is a well-recognized government and industry best practice.
The framework should consist of standards governing the acquisition of computer software
and enterprise-wide contracts negotiated in support of such standards. An effective
acquisition framework helps to ensure the compatibility of data that is shared between
locations and computer systems and also enables the purchaser to take advantage of volume
discount savings.

The objective of our audit was to determine whether the Department had a framework for
the acquisition of COTS software.


RESULTS OF AUDIT

The Department had not developed and implemented software standards or effectively used
enterprise-wide contracts, key components of a COTS acquisition framework. Departmental
offices (Federal and contractor) acquired application and operating system software that
varied in type and price and duplicated procurement efforts by awarding and managing
multiple contracts for the same product. Many offices purchased software over and above
normal operational requirements to ensure that data could be exchanged between locations.
The Department's inability to establish a framework was due to its decentralized information
technology strategy and a lack of organizational support. Without a framework, the Department has been
unable to take advantage of enterprise-wide software contracts that could result in savings of about $38 million
over five years for just one of its major desktop software suites. Utilizing enterprise-wide contracts for other
required applications could also significantly increase savings. Unless an acquisition framework is developed
and implemented, the Department may also be unable to meet its current five-year Strategic Plan performance
goals with regard to information technology related savings.

MANAGEMENT REACTION

Management agreed, in general, with the recommendations related to computer software standards and
enterprise-wide software licensing to improve interoperability and efficiency.


Attachment

cc: Deputy Secretary
    Under Secretary




 Page 18
COMMERCIAL OFF-THE-SHELF SOFTWARE ACQUISITION
FRAMEWORK


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations.................................................. 1


               Opportunities For Software Acquisition Savings

               Details of Finding ....................................................................... 3

               Recommendations and Comments ........................................... 8


               Appendices

               1. Scope and Methodology ................................................. ….10

               2. Related Office of Inspector General and
                  General Accounting Office Reports .....................................12
Overview

INTRODUCTION AND   The Department devotes a significant amount of its annual budget to the
OBJECTIVE          acquisition and maintenance of information technology resources.
                   About $1.6 billion, or almost 9 percent of the Department’s Fiscal Year
                   1999 budget of $17.9 billion, was for the acquisition, operation, and
                   maintenance of information technology. Approximately $200 million,
                   or 12.5 percent of the information technology budget, was for desktop
                   (personal computing) technology. Over 130,000 personal computers
                   are in use Department-wide. These computers operate a wide variety of
                   commercial off-the-shelf (COTS) computer software, including
                   electronic mail, word processing, spreadsheet, database management,
                   application development, statistical analysis, presentation, security and
                   virus protection. Many Departmental offices, including the
                   Headquarters Office of Procurement and Assistance Management,
                   various program and field offices, and contractor-operated facilities,
                   have independently negotiated contracts to acquire and maintain
                   information technology related products.

                   Developing and implementing an effective software acquisition
                   framework to support the information technology program is a well-
                   recognized government and industry best practice. The framework
                   should consist of standards governing the acquisition of computer
                   software and enterprise-wide contracts negotiated in support of such
                   standards. An effective acquisition framework helps to ensure the
                   compatibility of data that is shared between locations and computer
                   systems and also enables the purchaser to take advantage of volume
                   discount savings.

                   The objective of our audit was to determine whether the Department
                   had a framework for the acquisition of COTS software.

CONCLUSIONS AND    The Department had not developed and implemented software
OBSERVATIONS       standards or effectively used enterprise-wide contracts, key components
                   of a COTS acquisition framework. Departmental offices (Federal and
                   contractor) acquired application and operating system software that
                   varied in type and price and duplicated procurement efforts by
                   awarding and managing multiple contracts for the same product. Many
                   offices purchased software over and above normal operational
                   requirements to ensure that data could be exchanged between locations.
                   The Department’s inability to establish a framework was due to its
                   decentralized information technology strategy and a lack of
                   organizational support. The Department has not taken advantage of
                   enterprise-wide software contracts that could result in savings of about
                   $38 million over five years for just one of its major desktop software


Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         suites. The use of enterprise-wide contracts for other required
         applications could also significantly increase savings. Unless an
         acquisition framework is developed and implemented, the Department
         may also be unable to meet its current five-year Strategic Plan
         performance goals with regard to information technology related
         savings.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.



                                                       Signed

                                             Office of Inspector General




Page 2                                       Conclusions and Observations
OPPORTUNITIES FOR SOFTWARE ACQUISITION SAVINGS

The Department   The Department had not developed and implemented a framework for
Did Not Have A   software acquisitions. Specifically, it had not established Department-
Framework        wide standards governing the acquisition of computer software and had
                 not effectively used enterprise-wide software contracts. Departmental
                 offices acquired application and operating system software that varied
                 in type and price across the Department, and duplicated procurement
                 efforts by awarding and managing multiple contracts for the same
                 product. Many offices purchased software over and above normal
                 operational requirements to ensure that data could be exchanged
                 between locations.

                                   Software Standards Not Developed

                 Department-wide software standards, necessary to support an
                 acquisition framework, had not been established. Despite several
                 initiatives by the Chief Information Officer (CIO), beginning as early as
                 1996, Departmental officials have been unable to agree on standards. A
                 number of Federal and contractor officials, both at Headquarters and in
                 the field, disagreed with various components of the proposed standards
                 and desired voluntary versus mandatory compliance. Ultimately, the
                 Department’s Information Technology Council, comprised of senior
                 information technology officials from Headquarters and field offices,
                 did not support the adoption of the proposed standards.

                 While a follow-on standards development initiative had begun, the
                 effort was limited in scope and was not intended to address the entire
                 enterprise (Department). Officials from the Office of the CIO indicated
                 that future standards development initiatives would be limited to
                 Federal employees. Current development efforts are confined to the
                 Headquarters Collaboration Group, comprised of information
                 technology managers and specialists from the Department’s various
                 program offices, and contractor compliance will not be required. The
                 effectiveness of standards agreed to by this Group will be limited in that
                 they will only apply to about 15 percent of the over 110,000 individuals
                 employed by the Department.

                              Enterprise-Wide COTS Acquisition Practices

                 The Department had not made effective use of enterprise-wide software
                 contracts. Instead, the Department allowed various offices to duplicate
                 procurement efforts by separately negotiating and awarding contracts
                 for the same application. For example, based on data obtained from
                 software vendors, we identified 45 different offices throughout the


Page 3                                                             Details of Finding
         Department that awarded separate contracts for the same major
         database application. In another instance, 24 different offices awarded
         separate contracts for the same Internet security software.

         While the Department had awarded certain Headquarters-level software
         contracts, the contracts were not based on software standards. Only one
         of the seven contracts (for a particular anti-virus application) was
         available for Department-wide use and offered quantity purchase
         discounts. The usefulness of the remaining contracts was limited
         because their use was not mandatory, they were not available to
         contractors, and they were infrequently updated.

         A lack of enterprise-wide licenses also led to significant price variances
         for the same software application. Separately negotiated contracts for
         the same application resulted in substantial price variations. For
         instance, two separate offices purchased the same word processing
         product at prices that differed by 44 percent, $232 versus $335 per user
         license. Also, the same desktop software suite was purchased by two
         different locations at prices that varied by 59 percent, ranging from
         $155 to $247 per user license.

                                    Data Compatibility

         Due to the diversity of application software used to perform the same
         function, many offices surveyed found it necessary to purchase extra
         software over and above that needed for operational purposes in order
         to ensure data compatibility. Organizations found it necessary to
         acquire and maintain data translation software or multiple applications
         for functions such as word processing and electronic mail attachments
         to ensure that data produced by one office could be used by another.
         About 34 percent, or 15 of the 44 organizations that provided
         information, indicated that they purchased additional software to
         address problems with exchanging data. For instance, one office
         indicated that they spent $200,000 to purchase software to permit the
         use of data received from other Departmental locations.

         Variations in software used were also observed among the various
         offices and within the same site. For example, as shown in the
         following chart, numerous different major database applications were in
         use among the various offices. Inconsistencies in application usage also
         were observed within the same site. About 23 percent (10 of 44) of the
         organizations indicated that they used three or more different electronic
         mail and word processing applications.


Page 4                                                      Details of Finding
                         The following table details the diversity of applications used across the
                         Department at the 44 offices surveyed:

                                    Number of Different Software Packages in Use

                              Function                            Number of Packages


                              Word Processing                                4
                              Electronic Mail                               12
                              Virus Protection                               9
                              Desktop Platform                              11
                              Database                                      14


Software Acquisition     The Paperwork Reduction Act of 1995 and the Clinger-Cohen Act of
Framework Requirements   1996 outline a number of requirements designed to help Federal
and Best Practices       agencies better manage their information technology resources. The
                         Paperwork Reduction Act is the “umbrella” information technology
                         legislation for the Federal government, while the Clinger-Cohen Act
                         requires that Federal agencies establish a disciplined approach to
                         managing information technology resources. These Acts require the
                         head of each executive agency to design and implement a process for
                         maximizing the value and assessing and managing the risks of
                         information technology acquisitions.

                         The Office of Management and Budget (OMB), the General
                         Accounting Office (GAO), and the General Services Administration
                         (GSA) have developed guidance to assist agencies in managing
                         information technology. Software standards are identified as a key
                         component of an agency-wide information technology architecture.
                         The guidance emphasizes that Federal agencies should develop a
                         framework for software acquisition by issuing mandatory standards for
                         use throughout the agency and by developing and implementing an
                         investment strategy. OMB specifically noted that the establishment of
                         (software) standards both “guide and constrain information technology




Page 5                                                                     Details of Finding
                           asset acquisition” and “enable interoperability” (data compatibility) of
                           systems throughout an agency. The guidance stresses that standards
                           should address all components of the enterprise architecture and may
                           specify products that implement the standards.

                                                  Acquisition Best Practices

                           The Vice President’s National Performance Review (NPR) emphasized
                           that Government agencies should strive to be more efficient by
                           eliminating program redundancies. The objective of this and other NPR
                           initiatives is to make Government programs work better and cost less.
                           Establishing enterprise-wide, standards-compliant software contracts to
                           leverage an agency’s buying power is widely recognized as a prudent
                           business practice within both Government and private industry.

                           Both agency and industry officials believe that centrally negotiated
                           enterprise-wide software contracts can significantly reduce acquisition
                           costs. A recent best practice study commissioned by the Department of
                           Defense (DOD) recognized that enterprise-wide software agreements
                           reduce acquisition and support costs and should support an agency’s
                           software standards. Other often cited advantages to this software
                           acquisition approach include:

                           •   reduced computer-training costs by migrating to a standard
                               software environment;
                           •   reduced administrative costs by centrally acquiring and
                               administering enterprise-wide contracts, as opposed to offices
                               independently negotiating software contracts; and
                           •   enhanced data compatibility between computer systems.

Barriers to Establishing   The Department’s lack of progress in developing and implementing a
A Software Acquisition     framework for software acquisition was due to its decentralized
Framework                  information technology strategy and a lack of organizational support.
                           Contrary to OMB guidance and despite initiatives by the CIO,
                           organizational support for the software standards and the consolidated
                           acquisition of information technology products had not developed.
                           Acquisition authority for virtually all software had not been
                           consolidated and remained highly decentralized. Authority to
                           determine the type and brand of software to be used for a particular
                           purpose was maintained by individual offices rather than the CIO or the
                           Information Technology Council. In addition, information technology
                           funding and approval authority was vested in the Program Secretarial
                           Officers rather than being centrally controlled.


Page 6                                                                         Details of Finding
                              The lack of organizational support for a software acquisition framework
                              hindered the Department’s ability to satisfy key provisions of the
                              Clinger-Cohen Act. In our report on Review of the U.S. Department of
                              Energy’s Information Management Systems (DOE/IG-0423), it was
                              noted that the CIO’s authority to direct and control the information
                              technology program remained unclear. Similarly, the lack of
                              organizational support for a centrally controlled software acquisition
                              framework detracts from the Department’s ability to satisfy Clinger-
                              Cohen requirements to maximize value in information technology
                              acquisitions.


Benefits of Enterprise-Wide   The Department had not taken advantage of enterprise-wide software
Software Not Achieved         contracts that could result in significant savings. Based on the analysis
                              of a single major desktop software suite, savings of approximately
                              $38.2 million over a five-year period could be realized by the adoption
                              of software standards and the use of a supporting enterprise-wide
                              contract (see Appendix 1). Additional savings could also be realized by
                              using enterprise-wide contracts for standard applications, such as
                              database and security. Such contracts would permit the Department to
                              exercise substantial purchasing leverage and would permit it to take
                              advantage of significant volume purchase discounts. Based on the audit
                              analysis and the success of recent initiatives by several other large
                              Federal organizations, it is possible that savings of at least $30 to $50
                              million could be realized over five years, as predicted by the
                              Department in its December 1996 Information Architecture Baseline
                              Analysis Summary.

                              Recent experience in the Federal sector also demonstrates that the
                              Department could obtain significant benefits by developing and
                              implementing a framework for software acquisitions. Enterprise-wide
                              software licenses have recently been negotiated by other Federal
                              entities, including the Internal Revenue Service (IRS), the Department
                              of Labor, the National Aeronautics and Space Administration, and
                              DOD, and have allowed those organizations to take advantage of
                              significant savings. For instance, the IRS projects savings of $60 to
                              $80 million as a result of awarding an enterprise-wide software
                              contract. In another example, the Defense Logistics Agency projects
                              savings of $89 million, by utilizing a Department of Navy enterprise-
                              wide contract. Both savings estimates are projected over the five-year
                              life cycle of the respective contracts.




Page 7                                                                          Details of Finding
                  Estimates of significant savings prepared by the Department’s Office of
                  Science also serve to bolster Department-wide savings estimates.
                  During 1999, the Office of Science found that it could save more than
                  $400,000 over three years simply by migrating from multiple software
                  platforms to a single platform environment. The projected savings were
                  conservative when considering all Office of Science employees because
                  they were based only on the 500 personal computers owned by the
                  Office of Science within Headquarters.

                                        Meeting Performance Goals

                  Without the development of Department-wide software standards and
                  the use of supporting enterprise-wide software contracts and the
                  achievement of associated cost savings, the Department may not be able
                  to achieve previously established performance measures. As required
                  by the Government Performance and Results Act of 1993, the
                  Department established a September 1997 performance measure of
                  achieving $100 million in cost avoidance over the next five years by
                  establishing a Department-wide information architecture with
                  supporting software standards. An additional performance measure was
                  established to cut information technology expenses by $245 million
                  over a five-year period through better systems, large-scale
                  procurements, and eliminating redundancies. However, the Department
                  may not be able to meet these established goals unless it is able to
                  develop and implement an effective framework for software
                  acquisitions.


RECOMMENDATIONS   To meet the provisions of the Clinger-Cohen Act and realize significant
                  savings available through the adoption of a software acquisition
                  framework, we recommend that the Chairperson for the Executive
                  Committee for Information Management require the:

                  •   development and implementation of mandatory Department-wide
                      standards governing the acquisition of computer software, to be
                      phased in as software is upgraded or replaced, and

                  •   negotiation and award of Department-wide COTS software
                      contracts, or the use of similar multi-agency contracts, that include
                      enterprise-wide deployment based on the above standards.




Page 8                                             Recommendations and Comments
MANAGEMENT   Management agreed, in general, with the recommendations related to
REACTION     computer software standards and enterprise-wide software licensing to
             improve interoperability and efficiency.

             Management indicated that it would supplement its current guidance
             with policy on the adoption of approved Federal, DOE technical, or
             accredited industry standards. Standards are being drafted to facilitate
             information exchange and to ensure that critical systems align to the
             Department’s information technology architecture. Policy development
             will be focused on requirements that will be applicable to the Federal
             community, and to the greatest extent feasible, the contract population.
             A pilot program designed to improve Department-wide interoperability
             through information technology infrastructure core and common
             services will be initiated in March 2000. A simultaneous total cost of
             ownership study will be conducted to measure and potentially reduce
             information technology service costs.


AUDITOR      Management’s proposed actions are responsive to our
COMMENTS     recommendations.




Page 9                                    Recommendations and Comments
Appendix 1
SCOPE         The audit was performed between June and December 1999 at
              Departmental Headquarters in Washington, DC and Germantown,
              Maryland; the Savannah River Site in Aiken, South Carolina; the
              Lawrence Livermore National Laboratory in Livermore, California; and
              the National Energy Technology Laboratory in Pittsburgh,
              Pennsylvania. We also surveyed Departmental offices, including
              Departmental program and field offices and contractor-operated
              laboratories and facilities, to determine how and what types of software
              were being acquired. Based on our on-site work and survey results, we
              accumulated statistics on 44 separate Departmental entities with
              software contracting authority. Our audit was limited to COTS
              software for desktop computer applications. Commercially available
              business information systems were not within the scope of this review.


              To accomplish our objectives, we:
METHODOLOGY
              •   Reviewed applicable laws and regulations pertaining to the use and
                  acquisition of information technology. We also reviewed reports by
                  the Office of Inspector General, the General Accounting Office, and
                  various task forces and advisory groups.

              •   Reviewed numerous documents related to the use and acquisition of
                  software. We also reviewed Departmental planning documents,
                  including the September 1997 Information Management Strategic
                  Plan.

              •   Held discussions with program officials and personnel from the
                  Offices of the Chief Information Officer, Procurement and
                  Assistance Management, Chief Financial Officer, Field Integration,
                  Science, and Defense Programs. We also held discussions with
                  various officials and staff at the operations offices and laboratories
                  we visited.

              •   Reviewed information from the Internal Revenue Service and the
                  Department of Defense regarding initiatives undertaken to establish
                  enterprise-wide software contracts. Discussions were also held
                  with information technology vendors to gain their perspective on
                  the Department’s acquisition practices. These vendors also
                  provided data on the number and types of contracts they had been
                  awarded by Departmental entities.

              •   Administered a questionnaire to Departmental offices to determine
                  how and what types of software were acquired.

Page 10                                                     Scope and Methodology
          In order to determine potential savings, we obtained enterprise-wide
          software pricing information from the Department of Navy, which
          recently negotiated an enterprise license for a major desktop software
          suite for the Defense Logistics Agency. Using the prices obtained, we
          calculated the difference between the enterprise-wide software prices
          and GSA contract schedule prices, since use of the GSA contract
          schedule is a common method of procurement within the Department.
          Utilizing available information, we conservatively estimated that the
          Department’s 130,000 personal computers would need their key
          desktop software replaced or upgraded within five years. We then
          multiplied the Department’s 130,000 personal computers by the
          difference between the enterprise-wide prices and GSA prices to arrive
          at our estimated savings for the five-year period.

          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objectives. Accordingly, we
          assessed internal controls regarding the use and acquisition of software.
          Because our review was limited, it would not necessarily have disclosed
          all internal control deficiencies that may have existed at the time of our
          audit. We did not rely on computer-processed data to accomplish our
          audit objectives. An exit conference was held with appropriate
          Headquarters officials on January 21, 2000.




Page 11
                                                        Scope and Methodology
Appendix 2



                        RELATED OFFICE OF INSPECTOR GENERAL AND
                          GENERAL ACCOUNTING OFFICE REPORTS


This review concerned the Department’s efforts to develop a framework for software acquisitions,
consisting of software standards and enterprise-wide software contracts. Prior related Office of Inspector
General and General Accounting Office reviews include:

     •    The U.S. Department of Energy’s Procurement and Assistance Data System, DOE/IG-0436,
          January 1999. The report stated that the system did not meet user needs or comply with current
          generally accepted system practices. Consequently, Departmental offices developed their own
          systems to meet information needs.

     •    Review of the U.S. Department of Energy’s Information Management Systems, DOE/IG-0423,
          August 1998. The report stated that the CIO lacked the authority and resources necessary to ensure
          development of information architectures at the program office level, which form the building
          blocks of a Departmental architecture. The report added that, as a result, the Department had not
          developed and implemented an information technology architecture, although its Strategic Plan
          called for the implementation of a Department-wide information architecture with supporting
          standards by January 1998.

     •    Information Management: Energy Lacks Data to Support Its Information System Streamlining
          Effort, GAO/AIMD-96-70, July 1996. The report concluded that the Department had allowed its
          management and operating contractors wide latitude in developing and implementing software
          inventory procedures and standards. As a result, the Department did not have a complete inventory
          of specific systems used by the Department and its management and operating contractors as
          required by the Paperwork Reduction Act and related OMB guidance.




Page 12                                                      Related Office of Inspector General and
                                                             General Accounting Office Reports
                                                                             IG Report No. : DOE/IG-0463

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                        http://www.ig.doe.gov


                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
